      Department of Homeland Security





              DHS’ H 60 Helicopter Programs




OIG-13-89 REVISED                             May 2013

                         OFFI CE O.' INSPEcrOR GENERAL
                                            of Humeland Security


                                         May 23, 2013

MEMORANDUM FOR:              Th e Honorable Ra nd R. Be<1rs
                             Acting Deputy Secretary
                             ~ partment 01\ 1~meland Security

FROM:                        Ya·rl~Ju.--
                               Chief Operating Officer

SUBJECT:                       DHS' H-60 Helicopll!r proqrams (OIG·13-89)

Attached for yoo r inlormation Is our revised final report DHS' H·60 Helicopter P,ogrOffls.
The original report containe d an incorrect organilational process name .lind acronym;
however, based on new evidence provided from DHS' Office of PfOIram Accountability
ao ... d Risk Management, we have changed the organizational process naome and acronym
in the repo rt from Investment Review Boar d (IRS) to Acq uis ition Review Soard (ARB).

The report con tains four recomme nd atio ns aimed at improving DHS' H-60 heli co pter
progra ms. Your office concurred with 3 oft he 4 recommendation s. Based on
Information prOVided in your responses to the draft report, we consid e r
reco mmendations 1, 2, and 4 resolved and open. Once your office hn fully
Imp lemented t he recommendations, please ~bm it formal dO!ieout ietlt''lla us within
30 days so that we may cklse the recommendations Th e memoramlum sh oul d be
accompanied by evidence of completion o f agreed -upon corrective ;l(tlons and o f the
disposition o f any monetary aomounts. Recommendation 3 is uOiesolved and open. As
prescribed by the Departme nt o f Homeland 5e<:urlty Directive 0 77-1)1, Follow-Up and
Resolut Ions for Office of Inspettor Generaol Report Recommendations, within 90 days o f
the date of t hi~ memorand um, please provide ou r office with a written respo ... se that
inclu des yo ur (1) agreement or di s;!greement, (2) cOfrective ;l(tion pl.ln, and (3) urget
completion date for recom mendation 3. AI§o, please indude responsib le p~ rti es and
any oth er ~ upporting documentation necessa ry to inform us about the curr e ... t status of
th e reco mmendation. Until your respo nse is rece ived and eva luat ed, reco mm endation
3 will be co nsidered open ~nd unresolve d.

Consistent with our responsib ility under the Inspector General AU, we .lire provid ing
co pies 0 1 our report to appropriate congre~sional com mitte es with oversight and
appropriation respon!.ibillry over the Department of Homeland Security. We WIll POit
the report on o ur website for public disse mination.

Please 0:.;11 me with any questions, or 'fOu r staff may conl iltt Anne L Richards, As~lslant
Inspector Ge neral for Audits, ilt (202) 254-4100.

Atta chment
                                         OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security


   Table of Contents
   

   Executive Summary............................................................................................................. 1 

   

   Background ........................................................................................................................ 2 

   

   Results of Audit ................................................................................................................... 4 

   

          DHS Governance and Oversight.............................................................................. 4 

           

          Ownership and Management of H-60 Helicopters................................................. 8 

           

          Recommendations ................................................................................................ 12 

           

          Management Comments and OIG Analysis .......................................................... 13 


   Appendixes
    

              Appendix A:           Objectives, Scope, and Methodology ........................................... 15 

              Appendix B:           Management Comments to the Draft Report .............................. 17 

              Appendix C:           Location Map for CBP and USCG H-60 Helicopters ...................... 20 

              Appendix D:           Conversion Comparison of CBP and USCG H-60 Helicopters ....... 21 

              Appendix E:           CBP H-60 Conversion Process ....................................................... 25 

              Appendix F:           Major Contributors to This Report ............................................... 26 

              Appendix G:           Report Distribution ....................................................................... 27 





www.oig.dhs.gov                                                                                                                 OIG-13-89
                      OFFICE OF INSPECTOR GENERAL
                         Department of Homeland Security


   Abbreviations
           ADM     Acquisition Decision Memorandum
           AGB     Aviation Governance Board
           AMC     Acquisition Management Council
           ARB     Acquisition Review Board
           Army    United States Army
           CBP     U.S. Customs and Border Protection
           DHS     Department of Homeland Security
           FY      fiscal year
           GAO     Government Accountability Office
           IAA     Inter-Agency Agreement
           OCPO    Office of the Chief Procurement Officer
           OCRSO   Office of the Chief Readiness Support Officer
           OIG     Office of Inspector General
           PA&E    Office of Program Analysis and Evaluation
           PARM    Office of Program Accountability and Risk Management
           StAMP   Strategic Air and Marine Plan
           USCG    United States Coast Guard
           USM     Under Secretary for Management




www.oig.dhs.gov                                                           OIG-13-89
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Executive Summary
   The Department of Homeland Security (DHS) has 62 H-60 helicopters operated by U.S.
   Customs and Border Protection (CBP) and the United States Coast Guard (USCG), both
   of which are converting the helicopters to add about 15 years of operational life. These
   conversions include repairing the airframes as well as installing updated equipment. We
   performed this audit to determine whether DHS, CBP, and the USCG have efficiently
   acquired, converted, and modified these helicopters.

   DHS established processes and procedures to govern its aviation assets and provide
   acquisition oversight. However, these efforts did not fully coordinate the acquisition,
   conversion, and modification of DHS aviation assets, and did not control acquisition
   costs, schedules, or performance. Department-level governance of aviation assets has
   been sporadic, and acquisition oversight in some components has been ineffective.

   The USCG properly managed its H-60 helicopter program, but CBP did not. Most of the
   CBP H-60s were on loan from the United States Army (Army), and CBP had an Inter-
   Agency Agreement with the Army to complete all the conversions and modifications.
   CBP did not properly manage or oversee its H-60 program, which affected the cost-
   effectiveness and timely delivery of converted and modified H-60 helicopters. Between
   September 2008 and July 2012, the Army converted and modified two CBP H-60s at an
   average cost of $22.3 million each, and each conversion was completed in about 1,300
   days. OIG estimates that each future CBP conversion will cost approximately $18.3
   million and will take about 620 days to complete. Between January 2007 and July 2012,
   the USCG converted 27 of its H-60s, and the last 7 USCG conversions cost approximately
   $5.3 million each and took an average of 301 days to complete.

   As a result, the Department and CBP increased costs and experienced delays in
   converting and modifying CBP’s H-60 fleet. These delays have already limited CBP’s
   operation of its H-60s, and CBP anticipates that it may not be able to fly up to nine of its
   H-60s beginning in 2014. However, if DHS directs CBP and the USCG to complete the
   remaining 11 CBP H-60 conversions and modifications at the USCG Aviation Logistics
   Center, DHS could save about $126 million and have CBP H-60s able to fly 7 years
   sooner than anticipated. We made four recommendations that, when implemented,
   should improve the Department’s management and oversight of its aviation assets, as
   well as CBP’s aviation acquisitions and its H-60 program. DHS concurred with three of
   the four recommendations.




www.oig.dhs.gov                                 1                                         OIG-13-89
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Background
   On February 7, 2012, the DHS Secretary announced an Efficiency Review Initiative,
   which prioritized department-wide, cross-component aviation coordination and
   collaboration. On February 15, 2012, the Secretary testified to Congress that the fiscal
   year (FY) 2013 DHS budget proposal highlighted the need to increase the effectiveness
   of departmental aviation assets. These actions marked a renewed effort by DHS to
   examine leveraging joint requirements for CBP and USCG aviation assets.

   DHS currently has 62 H-60 helicopters: 20 at CBP and 42 at the USCG. See appendix C
   for CBP and USCG H-60 locations. Both components fly twin engine H-60s manufactured
   by the Sikorsky Aircraft Corporation (Sikorsky) that can travel similar distances carrying
   similar weight. Both components are converting their H-60 helicopters to add about 15
   years to their operational life. These conversions include repairing the airframes and
   installing updated equipment. To date, the two components have not coordinated
   these H-60 conversions.

   DHS Acquisition Oversight

   DHS has issued policies and procedures and established various entities to oversee its
   components’ acquisitions. In January 2010, the DHS Under Secretary for Management
   issued Acquisition Management Directive 102-01 (MD 102-01) to provide an overall
   policy and structure for acquisition management in the Department. The Department’s
   Office of Program Accountability and Risk Management is responsible for overseeing all
   of DHS’ major acquisitions. Within this office, the Acquisition Review Board (ARB) acts
   across components to determine whether acquisitions have met specific requirements
   at key phases throughout the acquisition process. DHS also established a Joint
   Requirements Council to review high-dollar acquisitions and make recommendations to
   the ARB on cross-cutting savings opportunities. Additionally, DHS established an
   Aviation Management Council, reporting to the Joint Requirements Council, which
   reviewed and coordinated departmental aviation operational policy and procedures,
   generated requirements, and managed joint aviation assets.

   In 2007, CBP’s Office of Air and Marine submitted its congressionally mandated
   acquisition plan, the CBP Air and Marine National Strategic Plan 2007–2012, which
   outlined how its aviation assets and acquisitions would support its mission. The plan
   envisioned operating a fleet of 38 new and converted medium-lift helicopters by 2012.
   In 2012, CBP revised the plan to show that 20 helicopters would be operating by 2025.
   CBP approved its plan for acquiring the helicopters on February 7, 2008, and submitted
   the plan to DHS’ Office of the Chief Procurement Officer (OCPO). According to a
   March 3, 2008, memorandum from OCPO to CBP, the acquisition plan included



www.oig.dhs.gov                                2                                        OIG-13-89
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   substantive issues that needed to be addressed. Although aware of these concerns,
   3 days after receiving the OCPO’s memo, CBP officials continued with the acquisition,
   signing an Inter-Agency Agreement (IAA) with the Army.

   DHS H-60s

   CBP operates various aircraft, including 20 H-60 helicopters, of which 16 are on loan
   from the Army and 4 are new helicopters that CBP purchased from Sikorsky through the
                                                        Army. CBP entered into an IAA with
    Figure 1. CBP H-60 Lima                             the Army to convert and modify the
                                                        16 H-60s (from the Alpha to the
                                                        Lima version) on loan from the
                                                        Army, and also to purchase and
                                                        modify the 4 new H-60s (Mike
                                                        version). The first 2 of the 16 H-60
                                                        Alphas were converted at Sikorsky’s
                                                        facilities at Chase Field; the third H-
                                                        60 was inducted for conversion at
    Source: CBP
                                        the Army’s Corpus Christi Army
                                                        Depot. The two converted CBP H-
   60 Limas were then flown to the Army’s Prototype Integration Facility in Huntsville,
   Alabama, to be modified with CBP mission-specific equipment.

   The USCG also operates H-60s to fulfill its        Figure 2. USCG H-60 Tango 

   missions, primarily for law enforcement and
   search and rescue missions. The USCG owns
   all 42 of its H-60s. It has converted 27 H-60
   Juliet versions to Tangos at its Aviation
   Logistics Center in Elizabeth City, North
   Carolina, and it plans to convert the remaining
   15 H-60 Juliets by FY 2014. Table 1 below
   contains information about CBP and USCG’s
   H-60 fleets as of July 2, 2012. See appendix D     Source: USCG

   for a detailed comparison of CBP and USCG
   H-60 helicopters.




www.oig.dhs.gov                                 3                                        OIG-13-89
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Table 1. CBP and USCG H-60 Fleets as of July 2, 2012 



    DHS H-60s                  CBP – 20 total                     USCG – 42 total
                                                               42 H-60s owned by the
                        4 Mikes (M) owned by CBP               USCG (15 Juliets to be
      Ownership         16 Alphas (A) on loan from Army        converted and 27 Tangos
                                                               completed)
                        16 Alphas (A) to be converted to       42 Juliets (J) to be converted
     Conversion         Limas (L)                              to Tangos (T)
                        M – 4 new in CBP inventory
                                                               J – 8 in operation
                        A – 11 in operation
             Status     A/L – 3 in conversion
                                                               J/T – 7 in conversion
                                                               T – 27 in operation
                        L – 2 in operation
   Source: DHS OIG


   Results of Audit
   The USCG properly managed its H-60 helicopter program, but the Department and CBP
   did not effectively oversee or manage the acquisition, conversion, and modification of
   CBP’s H-60 helicopters. Although DHS established processes and entities, including the
   ARB and the Acquisition Management Council (AMC), to govern its aviation assets and
   manage CBP’s acquisition of the H-60s, its efforts did not ensure proper coordination of
   aviation assets or effective acquisition oversight. Most of CBP’s H-60s were on loan
   from the Army. Because CBP relied primarily on the Army to complete the helicopter
   conversions and modifications, it did not properly oversee the program and manage
   these activities, which affected the cost and delivery of the helicopters. As a result, the
   Department and CBP increased costs and experienced delays in converting and
   modifying CBP’s H-60 fleet. These delays have limited CBP’s operation of its H-60s, and
   CBP anticipates removing nine H-60s from operations beginning in FY 2014.

           DHS Governance and Oversight

           DHS established processes and procedures to govern its aviation assets and
           provide acquisition oversight. However, these efforts did not fully coordinate
           the acquisition, conversion, and modification of DHS aviation assets, and did not
           control acquisition costs, schedules, or performance. Department governance of
           aviation assets has been sporadic, and acquisition oversight in some components
           has been ineffective. As a result, DHS has not implemented a comprehensive
           aviation strategy and did not properly oversee CBP’s acquisition of the H-60s.



www.oig.dhs.gov                                 4                                        OIG-13-89
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           DHS Governance of Aviation Assets

           DHS has no formal structure to govern the Department’s aviation assets and no
           specific senior official to provide expert independent guidance on aviation issues
           to DHS senior management. Over the past 9 years, DHS issued policies and
           established various entities to oversee its aviation assets and operations, but it
           did not sustain these efforts.

           Since 2003, senior managers realized the need for a high-level structure to
           integrate the Department’s components and help link cross-component aviation
           missions and capabilities. Over time, this oversight structure included
           Department-level management, with an Aviation Management Council started in
           2005. Oversight was inconsistent, and the Aviation Management Council
           stopped meeting in 2007.

           In 2009, Department-level oversight of DHS’ aviation assets resumed. The
           purpose of DHS’ Office of Program Analysis and Evaluation (PA&E) is to ensure
           that components’ operational plans align with the Department’s needs and
           resources. A PA&E-led Aviation Issue Team reviewed potentially colocating
           component aviation facilities, finding commonality in component aviation assets,
           and combining component aviation-related information technology systems. In
           a June 2011 briefing, PA&E discussed re-establishing an aviation management
           entity chaired by a DHS representative from within the Under Secretary of
           Management’s (USM) directorate. The USM recommended that the Deputy
           Secretary officially re-establish the AMC to lead DHS’ efforts to strategically align
           aviation assets across the Department’s components to improve effectiveness,
           efficiency, and interoperability.

           In 2011, the Deputy Secretary established an Aviation Working Group chaired by
           the Deputy Secretary, which included the USM as well as senior CBP and USCG
           officials, but the group did not have a charter, defined roles and responsibilities,
           or an independent aviation expert. The group collected data on CBP and USCG
           missions, aircraft inventories, flight hours, and aviation resources. It also
           reviewed components’ funding plans and opportunities for joint acquisitions
           beginning in FY 2019, and it considered an organizational structure for a
           department-wide aviation office. However, according to senior PA&E officials,
           without a dedicated, independent aviation expert to lead an authoritative,
           decision-making entity, the Department was relying on unverified, component-
           provided information to make aviation-related decisions. Appointing an aviation
           manager whose sole responsibility is to manage DHS oversight of its aviation
           programs would increase the probability that the newly established Aviation



www.oig.dhs.gov                                  5                                        OIG-13-89
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           Management Council could act as an informed coordinator and overseer of the
           Department’s aviation assets.

           DHS Oversight of CBP’s H-60 Acquisition Program

           DHS did not properly oversee CBP’s acquisition of its H-60s. CBP did not take
           into account DHS OCPO guidance on its H-60 acquisition plan. In addition, the
           DHS Office of Program Accountability and Risk Management (PARM) did not
           conduct a complete review of CBP’s H-60 program because the Department did
           not ensure that CBP followed departmental acquisition guidance and properly
           participated in the ARB process or coordinated with the ARB.

           In 2008, the OCPO reviewed CBP’s H-60 acquisition plan and expressed its
           concerns in a memorandum to CBP. According to the OCPO, CBP should have
           had two separate H-60 plans: one to convert H-60 Alphas to Limas, and a second
           one to purchase the new H-60 Mike helicopters. In addition, according to the
           OCPO, both plans should independently go through the acquisition review
           process, which includes ARB review. The OCPO was also concerned that CBP—

                  •	 Had not clearly defined the period of performance for the acquisition;
                  •	 Did not have a complete life cycle cost estimate;
                  •	 Had not completed a cost-benefit analysis to compare upgrading its
                     existing fleet to purchasing new helicopters; and
                  •	 Had not used various contracting best practices.

           Although they were aware of these concerns, CBP officials continued with the
           acquisition, signing an IAA with the Army 3 days after receiving the OCPO memo.
           In July 2012, a PARM official confirmed the need to divide CBP’s Strategic Air and
           Marine Plan (StAMP) into separate programs so the Department would have
           greater visibility into the numerous acquisition programs and projects included
           in the plan.

           According to a PARM official, CBP officials did not consider StAMP to be subject
           to the acquisition review process because the plan existed before the current
           acquisition review process was established. However, according to DHS
           acquisition policy, MD 102-01 applies to all existing acquisition programs “to the
           maximum extent possible.”




www.oig.dhs.gov                                   6                                 	    OIG-13-89
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           Further, CBP actually acquired three of its four new H-60 Mike helicopters in the
           fall of 2011, and in a September 2011 StAMP briefing, CBP acknowledged that
           the conversion and modification of its 16 H-60 Alphas to Limas was still in the
           acquisition phase. Therefore, CBP’s StAMP acquisition programs were subject to
           the acquisition review process, and CBP’s H-60 acquisition, conversion, and
           modification programs should have participated more transparently in the ARB
           process.

           In a March 11, 2010, Acquisition Decision Memorandum (ADM), the ARB
           concluded that CBP and the USCG were both pursuing H-60 conversions, and
           that it was important to understand whether the USCG H-60 conversion
           programs were compatible with CBP's prospective conversions and modifications.
           The ARB directed the USCG to collaborate with CBP and report on possible
           helicopter program synergies and present a joint review within 75 days.

           The USCG hosted CBP officials at its Aviation Logistics Center, but both USCG and
           CBP officials said that a senior CBP executive canceled any reciprocal visits by
           USCG officials to CBP sites and instructed CBP H-60 program personnel not to
           have any further contact with USCG H-60 officials. Without CBP’s cooperation,
           the USCG was unable to complete the joint review. PARM did not provide any
           further official direction on the incomplete review to the components, and the
           ARB did not determine why the joint review was not presented within the 75 days.

           In a June 17, 2011, ADM, the ARB directed CBP to prepare for a program review.
           The ARB intended for CBP to document its acquisition program baselines, as well
           as present program acquisition documentation, to comply with MD 102-01. CBP
           provided its response to the June 17, 2011, ADM on September 23, 2011, and
           the official ARB review was cancelled.

           As a result, PARM sent a draft ADM to CBP that “found the StAMP program to be
           non-compliant” for the following reasons:

                  •	 CBP’s “inability to submit an acquisition program baseline for approval”;
                  •	 CBP’s “failure to submit other acquisition documentation in accordance
                     with MD 102-01 for review and adjudication”; and
                  •	 CBP’s “inability to provide authoritative life cycle costs with supporting
                     documentation for review and adjudication.”

           PARM did not issue a final signed ADM and acknowledged the limited
           effectiveness of providing a draft ADM to CBP. If PARM had issued a signed ADM
           documenting CBP’s noncompliance, CBP would have been required to respond
           with an action plan addressing the identified issues.


www.oig.dhs.gov                                    7                                 	     OIG-13-89
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           DHS did not effectively govern its aviation assets and did not oversee all its
           aviation acquisitions. The Department could better govern its aviation assets
           under a formal entity led by a senior-level DHS employee with appropriate
           authority. In addition, CBP’s H-60 programs remain subject to review and should
           participate in the ARB process.

           Ownership and Management of H-60 Helicopters

           Although the USCG properly managed its H-60 helicopter program, DHS and CBP
           did not effectively oversee or manage the acquisition, conversion, and
           modification of CBP’s H-60 helicopters. Because of the current loan agreement
           with the Army, as well as CBP’s need for more effective program management,
           CBP H-60 conversions and modifications have cost more and taken longer than
           necessary. As a result, CBP anticipates removing nine H-60s from operations
           beginning in FY 2014.

           Army Ownership of CBP H-60s

           CBP spent millions of dollars to convert and modify H-60 helicopters that it did
           not own and may have to return to the Army at any time. According to a
           March 3, 2008, memo from the DHS OCPO to CBP regarding the CBP helicopter
           program:

                  The UH-60A's [H-60 Alphas] have been “on loan” from the US Army to
                  CBP Air and Marine since 1983. Procuring a conversion on assets
                  “borrowed” from another agency is a major concern. We understand
                  CBP Air and Marine will secure a change in the ownership status of the
                  aircraft before DHS invests in their conversion to UH-60L's [H-60 Limas].

           CBP did not adequately respond to the OCPO’s concerns, and instead signed an
           IAA with the Army 3 days later to convert and modify all the loaned H-60 Alphas,
           without taking ownership.

           CBP officials believed that the H-60 loan agreement required the Army to
           convert and modify the CBP H-60s. However, the loan agreement:

                  …authorizes [CBP] to install and remove mission equipment without
                  requesting approval from [the Army]. [CBP] assumes responsibility for
                  configuration control and evaluation of the equipment to ensure
                  airworthiness. This authorization is limited to mission equipment only; all
                  other configuration changes will go through normal channels.



www.oig.dhs.gov                                8                                       OIG-13-89
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Based on the loan agreement, the Army is not required to complete the
           conversion and modification work, only to authorize it. CBP officials also said
           that only the Army could complete and issue an Air Worthiness Release, which
           specifies the conditions under which the CBP H-60s can be safely converted,
           modified, and flown. (See appendix E for details on the conversion process.)
           USCG H-60s are also certified safe for flight upon completion. When questioned
           about having the USCG complete the CBP conversions and modifications, a
           senior CBP executive said that, if directed, CBP would move the program to the
           USCG.

           In its Review of CBP Acquisition Plan for Medium Lift Helicopters (March 2008),
           CBP acknowledged that in November 1999 the Army had requested that the 16
           H-60 Alphas be returned or that it be compensated for them. In 2010, a CBP
           manager requested ownership of the H-60s, sending a letter directly to the
           Secretary of Defense. However, the Army denied the request, stating that it was
           not removing H-60s from its inventory at that time. In March 2012, the Army
           released a plan to decommission and remove hundreds of H-60s from its
           inventory beginning in FY 2014. This plan gives DHS the opportunity to again
           request the transfer of ownership of the 16 loaned H-60s from the Army to CBP.
           If CBP owned its H-60s, DHS could properly oversee and better manage the cost,
           schedule, and performance for the acquisition, conversion, and modification of
           CBP H-60s.

           CBP’s H-60 Program Management

           CBP did not effectively oversee its H-60 acquisition and conversion program with
           the Army. CBP officials delegated overall program management authority to the
           Army and did not request, obtain, or verify detailed financial or program
           documentation.

           According to the Federal Acquisition Regulation (FAR § 4.801), agencies are
           required to maintain contract files that constitute a complete history of the
           transaction. DHS policy further requires components to perform indepth
           reviews of all invoices and vouchers to ensure costs are allowable. The
           contracting documents and agreements between CBP and the Army described
           the detailed cost information that Army was to provide to CBP for the CBP H-60
           acquisitions, conversions, and modifications.

           CBP officials received high-level cost information, which did not include the
           detail necessary to oversee the CBP H-60 programs adequately. For example,
           the Army conducted approximately 15,000 tests on the CBP H-60 components,
           but CBP could not identify completed tests or their corresponding costs. During


www.oig.dhs.gov                                9                                      OIG-13-89
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           our review, Army officials said that they did maintain detailed records of the
           costs associated with CBP’s H-60 programs. Although we asked CBP officials to
           request and obtain detailed, authorized financial records from the Army, CBP
           officials did not obtain this information for our review.

           For each CBP H-60 helicopter, we obtained high-level financial data from three
           sources, but each source listed a different total cost for each helicopter. For
           example, documentation related to one CBP helicopter conversion showed the
           following total costs:

                  •	 $20.9 million on the first DD-1149 Requisition and Invoice/Shipping
                     Document from the Army;1
                  •	 $22.4 million on a CBP Monthly Report prepared by the Army; and
                  •	 $21.4 million based on invoices submitted to CBP’s National Finance
                     Center.

           CBP could not explain the discrepancies among the three sources of cost
           information. Because of this incomplete documentation and oversight, CBP
           program managers could not identify how much the agency actually paid the
           Army for individual tests, materials, and labor and services provided for CBP
           H-60 acquisition, conversion, and modification.

           Comparison of CBP and USCG H-60 Conversion and Modification Programs

           CBP H-60 conversions and modifications cost more and took longer than CBP
           originally planned; they also cost more and took longer than similar USCG H-60
           conversions and modifications. If DHS directed CBP and USCG to complete the
           remaining 11 CBP H-60 conversions and modifications at the USCG Aviation
           Logistics Center, DHS could save about $126 million and have CBP H-60s able to
           fly 7 years sooner than planned.

           In 4 years, the Army converted two of CBP’s H-60s at a total cost of approximately
           $44.5 million. In 5 years, the USCG converted 27 of its H-60s at a total cost of
           approximately $181.8 million. The USCG also efficiently planned and
           implemented conversions to limit the time that its H-60s were unavailable for
           operations. CBP currently plans to complete its remaining 11 H-60 conversions
           by 2025; the USCG plans to complete its remaining 15 H-60 conversions by 2014.



   1
    When CBP takes possession of the H-60, the Army provides a DD-1149 document showing the high-level
   costs.


www.oig.dhs.gov                                     10                                      	     OIG-13-89
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           CBP’s first two conversions took 1,317 days and 1,325 days, respectively, at two
           different locations. The Army sent the CBP H-60 Alphas to the Army’s Corpus
           Christi Army Depot or to Sikorsky’s Chase Field in Texas for conversion to H-60
           Limas. The converted H-60 Limas were then flown to the Army’s Prototype
           Integration Facility in Huntsville, Alabama, to add CBP-requested mission
           equipment. Based on the Army’s estimates, each future CBP conversion and
           modification will take approximately 620 days to complete.

           In contrast, the USCG converted its first 11 H-60s in a total of 1,307 days at the
           USCG’s Aviation Logistics Center in Elizabeth City, North Carolina. The USCG’s
           last seven conversions averaged 301 days per helicopter.

           The first CBP H-60 Alpha-to-Lima conversion and modification cost an estimated
           $24.6 million. Its second conversion and modification cost an estimated
           $19.9 million. OIG estimates that conversions will cost about $18.3 million per
           helicopter, totaling approximately $202 million for the remaining 11 CBP H-60s.
           CBP’s projected costs for its future conversions increase with each conversion.

           The first USCG H-60 Juliet-to-Tango conversion and modification cost
           $7.3 million, and the USCG averaged $5.3 million each for its last seven H-60
           conversions. The USCG will convert its remaining 15 H-60s for approximately
           $79.5 million. By continuously improving its processes, the USCG has regularly
           reduced costs and production times.

           Operationally, in FY 2011 the USCG H-60s flew an average of 54.5 hours per
           month; CBP H-60s flew an average of 15.4 hours per month. The USCG foresees
           its H-60 flight hours remaining steady; CBP has proposed reducing flight hours.
           Table 2 compares conversion costs and schedules, as well as flight hours for CBP
           and USCG H-60s.

           Table 2. Comparison of CBP and USCG H-60 Conversions

                   DHS H-60s                               CBP                   USCG
                 Estimated Cost                        $18.3 million           $5.3 million
               Estimated Schedule                        620 days                301 days
           Actual FY 2011 Flight Hours               15.4 hours/month       54.5 hours/month

           Source: DHS OIG





www.oig.dhs.gov                                 11                                        OIG-13-89
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           The USCG Aviation Logistics Center has the experience and expertise to convert
           and modify CBP H-60s based on its prior work on different versions of non-USCG
           H-60s. The Aviation Logistics Center is ISO 9001- and ISO 14001-certified and,
           since 2001, has completed maintenance on more than 30 United States Air Force
           H-60 helicopters. The USCG also rebuilt a crash-damaged United States Navy H-
           60, converting it to a USCG H-60 Tango, and built a USCG H-60 Tango from
           damaged and spare parts from both United States Navy and Army H-60
           helicopters.

           Based on our analysis, the USCG Aviation Logistics Center is capable of efficiently
           and economically completing the CBP H-60 conversions and modifications. DHS
           can significantly reduce costs and increase efficiencies within its aviation programs
           by directing CBP to take ownership of its aviation assets, and by directing the
           USCG Aviation Logistics Center to complete CBP’s H-60 program. As a result,
           DHS will save about $126 million and shorten CBPs projected completion
           schedule by about 7 years, allowing CBP to have its conversion program
           completed in FY 2018 rather than 2025.

           Recommendations
           We recommend that the Deputy Secretary:

           Recommendation #1:

           Establish and charter a formal department-level Aviation Management Council
           to provide governance and oversight of departmental aviation assets, which
           includes a senior-level position with direct authority and accountability over all
           Department of Homeland Security aviation programs.

           Recommendation #2:

           Direct U.S. Customs and Border Protection to apply all the requirements of the
           Acquisition Life Cycle Framework established through Management Directive
           102-01 to each individual program or project within its Strategic Air and Marine
           Plan.

           Recommendation #3:

           Initiate discussions to obtain departmental ownership of U.S. Customs and
           Border Protection H-60 helicopters from the United States Army.



www.oig.dhs.gov                                 12                                        OIG-13-89
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           Recommendation #4:

           Direct U.S. Customs and Border Protection and the United States Coast Guard to
           complete the remaining U.S. Customs and Border Protection H-60 conversions
           and modifications at the United States Coast Guard Aviation Logistics Center.

           Management Comments and OIG Analysis
           Management Comments to Recommendation #1

           DHS Concurred: According to DHS, the Deputy Secretary has approved a
           proposal from the Management Directorate’s Office of the Chief Readiness
           Support Officer (OCRSO) to establish an Aviation Governance Board (AGB). The
           AGB will be chaired and staffed by the OCRSO and will be responsible for
           providing coordinated oversight and management of DHS aviation programs.
           DHS notes that the OCRSO has begun to identify key aviation stakeholders in
           DHS to staff the AGB, and that it anticipates a first meeting by August 30, 2013.
           According to DHS, the AGB’s first task will be to develop a formal charter,
           estimated to be completed by December 31, 2013.

           OIG Analysis: This recommendation is resolved but will remain open until the
           OCRSO has fully established and staffed the AGB and developed its formal
           charter, and the AGB is providing coordinated oversight and management of DHS
           aviation programs. At that time, OIG will evaluate whether AGB’s authorities,
           funding, and staffing were appropriately identified and implemented, and that it
           is providing sufficient authority and accountability over all DHS aviation programs.

           Management Comments to Recommendation #2

           DHS Concurred: According to DHS, the Chief Acquisition Officer directed that
           CBP submit StAMP to PARM. PARM will oversee StAMP in accordance with MD
           102-01. Existing projects that are in the acquisition life cycle prior to Acquisition
           Decision Event 3 (full production) and any new acquisition programs or projects
           currently part of StAMP will be required to progress through the acquisition life
           cycle in accordance with MD 102-01. The DHS Acquisition Review Board will
           conduct Acquisition Decision Events as those programs and projects progress
           through the acquisition life cycle.

           OIG Comments: This recommendation is resolved but will remain open until OIG
           receives and evaluates CBP’s acquisition and management action plan to break
           out StAMP’s individual projects to provide better acquisition management,



www.oig.dhs.gov                                 13                                         OIG-13-89
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           oversight, and transparency. Also, PARM must demonstrate that it is properly
           overseeing and monitoring CBP Office of Air and Marine’s individual projects in
           an effort to properly enforce MD 102-01’s acquisition life cycle management
           processes.

           Management Comments to Recommendation #3

           DHS Concurred: DHS confirmed that in 2010, a CBP program manager sent a
           letter to the Secretary of the Department of Defense requesting ownership of
           the loaned helicopters, and that the Army responded to that request noting that
           it was currently short of UH-60 Blackhawks.

           OIG Comments: This recommendation remains unresolved and open. As noted
           in this report, OIG was aware of the 2010 CBP program manager’s request. We
           recommended that a senior-level DHS official now request acquiring ownership
           of the H-60s, based on the Army’s current plans to reduce its fleet by more than
           600 H-60s over the next 10 years, beginning in 2014.

           Management Comments to Recommendation #4

           DHS Did Not Concur: However, according to DHS, the OCRSO will facilitate a
           cost-benefit analysis with CBP and the USCG to determine whether cost
           efficiencies can be realized by completing the remaining CBP H-60 conversions
           and modifications at the USCG Aviation Logistics Center. Upon its completion,
           targeted for September 30, 2013, DHS will make a recommendation based on
           the analysis.

           OIG Analysis: This recommendation is resolved but will remain open. The DHS
           OCRSO’s proposed cost-benefit analysis is the first step in meeting the intent of
           the recommendation. This is the type of action that PARM directed CBP and the
           USCG to do more than 3 years ago, and it follows the Secretary’s initiatives to
           increase the effectiveness of departmental aviation assets. Upon its completion,
           OIG requests a final copy of the OCRSO’s cost-benefit analysis with supporting
           documentation, along with the Department’s final recommendation.




www.oig.dhs.gov                               14                                       OIG-13-89
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   We performed an audit to determine whether DHS and its components have developed
   efficiencies for the acquisition, conversion, and modification of CBP and USCG H-60
   helicopters. During this audit, we published the letter report OIG-12-104, CBP
   Acquisition of Aviation Management Tracking System. We reviewed Federal regulations,
   departmental guidance, and agency internal control procedures and requirements for
   acquisition programs. We reviewed ARB files based on MD 102-01 documentation
   requirements for CBP and USCG H-60 programs, as well as CBP and USCG contracting
   officer and contracting officer’s technical representative H-60 program files. We
   reviewed Army-provided documents outlining various costs for the CBP H-60 program
   and compared those costs with data from the CBP National Finance Center.

   We interviewed various officials at DHS PARM and PA&E in Washington, DC, as well as
   component acquisition officials and program managers at CBP and USCG Headquarters.
   We conducted field work at the U.S. Army’s Corpus Christi Army Depot in Corpus Christi,
   Texas; the Army’s Prototype Integration Facility at the Redstone Arsenal in Huntsville,
   Alabama; and the CBP Air and Marine Branches at the Naval Air Station North Island in
   San Diego, California, and Homestead Air Reserve Base in Homestead, Florida. We
   visited CBP’s Air and Marine Operations Center in Riverside, California. We also
   conducted fieldwork at the USCG Aviation Logistics Center and Air Station Elizabeth City
   in Elizabeth City, North Carolina, as well as at USCG Air Station San Diego and USCG Joint
   Harbor Operations Center – Sector San Diego.

   We conducted this performance audit between January and September 2012 pursuant
   to the Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards, except that we identified an impairment of our
   independence in appearance. During this audit, it came to our attention that a family
   member of a senior OIG official was employed by an entity associated with the audit. To
   resolve this issue, we employed safeguards to protect the work from the threat to our
   independence in appearance. Our safeguards included extra steps to validate all
   evidence obtained and avoiding any interactions involving a conflict of interest. In our
   opinion, the safeguards provided sufficient controls to ensure that the impairment to



www.oig.dhs.gov                               15                                       OIG-13-89
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   our independence in appearance did not affect the findings and conclusions developed
   during this audit.

   GAGAS requires that we plan and perform the audit to obtain sufficient, appropriate
   evidence to provide a reasonable basis for our findings and conclusions based upon our
   audit objectives. We obtained an understanding of the internal controls that were
   significant within the context of our audit objective. We evaluated the design and
   operating effectiveness of these internal controls to determine the reliability of
   information used in performing these significant controls. We applied accepted cost
   estimating methods to determine total estimated future cost savings. We believe that
   the evidence obtained provides a reasonable basis for our findings and conclusions
   based upon our audit objectives, and that the impairment to our independence in
   appearance did not affect this evidence or any findings and conclusions.




www.oig.dhs.gov                              16                                     OIG-13-89
                                          OFFICE OF INSPECTOR GENERAL
                                                Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report

                                                                                                    u.s. Otp.rlm\,:l\t of Ilomtiud Srcurlt)
                                                                                                    \\'.lhrngtOIl, DC 20518




                                                                                     "iQ. Homeland
                                                                                     \~ Security
                                                                April 25, 2013


              MEMORANDUM FOR:                     Carhon I. Mann
                                                  ChicfOpcmt ing Officer
                                                  Office of the Inspector General

              FROM:                               Ji~ H. crumpacke;\.· ~ ~
                                                  Director        '~
                                                  Departmental GAO-O IO Liaison Officc

              SUBJECT:                            DHS' H-60 Helicopter Programs (Project No. 12-I02-AUD-CBP)


              Thank you for the opportunity 10 review and comment on this draft report. We apprcciale the
              Offiee of Inspector Oeneml's (OIO's) work in planning and conducting its review and issuing
              this report.

              We are pleased to note that OIG concluded the U.S. Coast Guards (USCG) has prop<."r1y
              managed its H-60 helicopter program. However, the report includes many references that do nOI
              adcqualcly capture the differences in scope orlhe U.S. Customs and Border Protection's (CSP's)
              Office of Air and Marine (OAM) and USCG H-60 Helicopter Programs. For example, the O IG
              report compares Ihe USCG corrosion control I and avionics upgrade effort to the CBPIU.S. Anny
              (Anny) recapitalization program? The Department maintains that the CBP H-60 rccapitalil'.ation
              and the USCO H-60 upgrade efforts arc not similar and not comparable in scope, including
              difference in asset configuralions, ai r worthiness requirements and certifications, levels of
              required maintenance, and non-recurring engineering costs.

              The aud it report also does not provide infonnotion on potential COSI and schedule savings of
              relinquishing the USCG H-60 helicopters versus pursuing an acquisition progmm for the
              HH-60J . In addition, the repon does not discuss the USCG MH-60T program in the
              appropriate level of detail. Spedfically. the MH-60T program is being executed in four
              acquisition phases, but it is not clear whether the $5.3 million the OIG reported is for one or all
              four phases or any combination thereof. The OIO's conclusions lack a business case analysis
              that is necessary to detennine whether USCG has Ihe capacity to suppon CBP's
              recapitalization.


              tnle   USCG program focu.."CS on corrosion control due 10 the O\'eIW8ter environment in whic.h they are used.
              1'be Ann)"s recapilnlizalion program docs not focus on cotTO$ion prc\'cnlion and control.        This program ~uirC$ a
              10lal overhaul of varying components including upgrades 10 airframes. propulsion syslems. and coc kpil components.
              II aL'IO includes upgrades 10 digili zed naviglilion and revised rolor and drivcshafi assentblies.




www.oig.dhs.gov                                                           17                                                                  OIG-13-89
                                           OFFICE OF INSPECTOR GENERAL
                                                 Department of Homeland Security




                  The report contained four recommendations, of which the Department concurs with three and
                  noneoneurs with onc. Specifically, OIG rccommended that the Deputy Secretary:

                  Recommendation I: Establish and charter a fonnal department-level Aviation
                  Management Council to provide governance and ove~ight of departmentul aviation
                  assets, which includes a senior-level position with direct authority and accountability
                  over all Department of Homeland Security aviation programs.
                  Res ponse: Concur. The DHS Deputy Secretary upproved a proposal from the Management
                  Directorate (MOMT) Office of the Chief Readiness Support Officer (OCR SO) to establish an
                  Aviation Governance Board (AGB). The AGB will be chaired and staffed by the OCRSO, and
                  will be responsible for providing coordinated oversight and management of DHS aviation
                  programs. TIle OCRSO has begun to identify key aviation stakeholders in DHS to staff the
                  AGB, and anticipates the first meeting by August 30, 2013. The first task of the AGB will be to
                  develop a fonnal charter. Estimated Completion Date (ECD): December 31,2013.

                  Recommendation 2: Direct U.S. Customs and Border Protection to apply all the
                  requirements of the Acquisition Life Cycle Framework established through
                  Management Directive 102-01 to each individual program or projecl within its Strategic
                  Air and Marine Plan.
                  Response: Concur. The DHS Chief Acquisition Officer direcled that CBP submi t the Strategic
                  Air and Marine Program (STAMP) to the MGMT Office of Program Accountability and Risk
                  Management (PARM). PARM will oversee STAMP in accordance with Management Dir<..'Ctive
                  (MD) 102-01. Existing projects that arc in the acqUisItion hlecyc1c prior to Acquisition Dccision
                  Event 3 (full production) and any new acquisition programs or projccts currently part of STAMP
                  will be required to progress through the acquisition lifecycle in accordance with MD 102-01. The
                  DHS Acquisition Review Board will conduct Acquisition Decision Events as those
                  programs/projccts progress through the acquisition lifccyc1e. These reviews will be ongoing.
                  We request Ihalthis recommendation be considered resolved and closed.

                  Recommendation 3: Initiate discussions to obtain departmental ownership ofCBP's
                  11-60 helicopters from the United States Anny.
                  Response: Concur. CBP OAM has already been in discussions with the Anny to obtain
                  Department ownership of' Ihe 11-60 helicopters. In a Ictter 10 the Dcpartment ofOefcnsc, CBP
                  requested ownership of the loaned helicoplers), 111e Anny responded 10 Ihe request by stating
                  thnt thc Anny was currently shon H-60 Bl ackhawks, and the Secretary of Defense had not
                  delcnnincd Ihal thc aircraft werc excess". The Anny did not foresee any change to the loan
                  arrangement or commitment. Copies of both letters were previously provided to OIG. We
                  requcstlhatlhis rccommendation be considered resolved and closed.




                  1 Charles C. Bourqunrdez. Jr.. CDI'. 10 The UOllQrable Roben M. Oates. Secretary ofDefo:nsc. Washington. DC.
                  I February 2010.
                  • Jeffre)' J. SchIOCN;er. tl-lajorGenernl. United State..; Ann),. to Charles C. BourqUtlrdez. Jr., Washington. DC.
                  2] March 20 IO.


                                                                                                                                       2




www.oig.dhs.gov                                                          18                                                                OIG-13-89
                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security




                  Recommcndlltion 4: Direct U.S. Customs and Border Protection and the United States
                  Coast Guard to complete the remaining U.. Customs and Border Protection H·60
                  conversions and modifications al lhc United States Coast Guard Aviation Logistics
                  Center.
                  Respon se: Non-concur. The OIG report compared two vastly different conversion programs at
                  USCG and CBP reached a conclusion on various cost efficiencies, which we do not believe is
                  fully supported wi th the evidence of the report. The programs are not comparable as they
                  involve different ai rcrafts and the activities pcrfomlcd for the actual conversions vary greatly.
                  Specifically, the USCG program is a corrosion inspection and mitigation and cockpit upgrade
                  program, and the CBP program is an airframe depon overhaul with a cockpit upgrade and CBP
                  missionization. The programs have different scopes as defined by their different statements of
                  work. It is not at all clear if transferring the UH-60 recapitalization to USCG is in fact more cost
                  effective.

                  The OHS MGMT OCRSO will facil itate a cost-benefit analysis with USCG and CBP to
                  detennine whether cost efficiencies can be realized by completing the remaining CBP H-60
                  conversions and modifications at the USCG Aviation Logistics Center. Once the scope of work
                  has been agreed upon, USCG and CBP would each provide a business case for completing the
                  remaining CBP H-60 conversion. The analysis will look at issues such as the specifics for the
                  activities of the conversion, supply chain synchronilation, timing and sequencing of work. The
                  results will be eva luated and compared to DIG's findings, taking into consideration asset
                  ownership, for an overall cost-benefit. Upon completion, OCRSO will make a recommendation
                  on the basis of the analysis. DHS will consider the results and take the most eost-efTcctive
                  approach. ECO: September 30,2013.

                  Thank you for the opportunity to review and comment on this draft report. Technical comments
                  were previously submitted under separate cover. Please feci free to contact me if you have any
                  questions. We look forward to working with you in the fi.nure.




                                                                                                                     3




www.oig.dhs.gov                                                  19                                                      OIG-13-89
                           OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


   Appendix C
   Location Map for CBP and USCG H-60 Helicopters




           Source: OIG 




www.oig.dhs.gov                         20                    OIG-13-89
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   Appendix D
   Conversion Comparison of CBP and USCG H-60 Helicopters
   Source: OIG, based on CBP and USCG testimony and documentation

   USCG H-60J-Ts                                         CBP H-60A-Ls





   Source: USCG                                          Source: CBP

   In the USCG, aircraft capabilities were               The mission of the CBP’s Office of Air and
   developed to primarily meet Search and                Marine is to protect the American people and
   Rescue, Enforcement of Laws and Treaties and          the Nation’s critical infrastructure through
   Marine Environmental Protection, and Military         the coordinated use of integrated air and
   Readiness missions. The H-60 is the USCG’s            marine forces to detect, interdict, and prevent
   medium-range rescue aircraft used for distant         acts of terrorism and the unlawful movement
   or medium-lift missions. The USCG’s target for        of people, illegal drugs and other contraband
   aircraft availability is 71 percent. Additionally,    toward or across U.S. borders. In support of
   air stations ensure that a crew and aircraft are      CBP’s mission, the H-60 serves as a utility
   ready to respond to alerts within 30 minutes          tactical transport helicopter.
   from time of notice.

   Characteristics                                       Characteristics
   Power Plant                                           Power Plant
           Twin Engine General Electric T700-GE-                 Twin Engine General Electric T700-GE-
           401C, turbo shaft                                     701C, front drive, turbo shaft
   Performance                                           Performance
           Max Speed: 180 knots                                  Max Speed: 150 knots
           Service Ceiling: 18,000 ft.                           Service Ceiling: 20,000 ft.
           Range: 700 nautical miles                             Range: 600 nautical miles
   Weight                                                Weight
           Empty: 15,000 lbs                                     Approximate Empty: 13,371 lbs
           Gross Weight: 21,884 lbs                              Gross Weight: 22,000 lbs
   Armament                                              Armament
           Single M240 machine gun                               .50 caliber rifle
           .50 caliber rifle
   Dimensions                                            Dimensions
           Rotor Diameter: 53 ft., 8 in.                         Rotor Diameter: 53 ft., 8 in.
           Length: 64 ft., 10 in.                                Approximate Length: 64 ft., 10 in.




www.oig.dhs.gov                                         21                                            OIG-13-89
                               OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


                                        Cockpit Comparisons

   USCG H-60J (Juliet)                             CBP H-60A (Alpha)
       Analog Cockpit                                  Analog Cockpit




   Source: USCG                                    Source: OIG


   USCG H-60T (Tango)                              CBP H-60L (Lima)
     Digital Cockpit                                   Analog Cockpit
     Digital auto pilot with coupled hover




                                                   Source: CBP

   Source: USCG





www.oig.dhs.gov                                 22                      OIG-13-89
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


                                                Upgrades

   The USCG and CBP are both converting H-60 helicopters to provide about 15 additional years
   of operational life. These conversions include repairing the airframes and installing updated
   equipment. Upgrades include the following:

   USCG                                                CBP

   Cockpit and Cabin Displays                          Cockpit and Cabin Displays
   Five new multifunction display screens. The         Two Garmin communication and navigation
   multifunctional displays include digital radar      systems (providing two VHF radios and
   display, traffic collision avoidance system,        navigation suite), a weather system display,
   traditional display of primary flight               and digital moving maps.
   instruments on the pilots’ flight display, radar
   altimeter, verbal low altitude, and improved
   Search and Rescue hoist camera images.

   Infrared Detection and Identification Systems       Infrared Detection and Identification Systems
   Electro-Optical/Infrared Sensor System              Forward-Looking Infrared Star Safire High
   consisting of five units: turret sensor unit,       Definition Mission Sensor designed to
   control electronics unit, cabin Display Unit,       provide infrared detection, recognition, and
   pilot control unit, and joystick control unit.      identification in support of intelligence,
   The turret sensor unit houses the sensor suite      surveillance and reconnaissance, search and
   and optional payloads.                              rescue, maritime patrol, border patrol, and
                                                       force protection.

   Video Recording Systems                             Video Recording Systems
   Helicopter Airborne Video System provides a         Avalex AVR 8245 Digital Video Recorder
   high-resolution camera system. The camera           records mission sensor videos to various
   system is designed to capture cabin, hoist, and     recording media and/or allow for playback of
   rescue swimmer activities. A Helicopter             the recorded video in the aircraft or for post
   Integrated Data Storage digitally records and       mission analysis. A Broadcast Microwave
   replays a wide variety of information.              Services Digital Downlink provides the ability
                                                       to feed live or recorded mission sensor video
                                                       to a compatible ground station.




www.oig.dhs.gov                                       23                                         OIG-13-89
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security



   USCG Searchlights                               CBP Searchlights 





   Source: USCG                                    Source: CBP

   Trakkabeam A800 is designed for airborne and    Trakkabeam A800 is intended to provide
   other applications, is mounted on an            illumination of targets of interest. The
   integrated motorized platform, is capable of    searchlight has an infrared band pass filter
   being used with thermal and video cameras,      for operations. The beam width can be
   and a moving map.                               varied from narrow to flood. The search light
                                                   can be controlled from the cockpit or from
                                                   the cabin using the hand control unit.

   USCG Hoist                                      CBP Hoist




   Source: USCG                                    Source: CBP


   Lucas Aerospace Cargo Systems Hoist was         Breeze Eastern Electric Hoist and External
   integrated into the H-60 airframe per USCG’s    Stores Support System Mount. Added on the
   purchase request.                               side of H-60. Can be added and removed
                                                   according to mission.




www.oig.dhs.gov                                   24                                       OIG-13-89
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix E
   CBP H-60 Conversion Process
   Source: OIG, based on Corpus Christie Army Depot’s Process Workflow




www.oig.dhs.gov                            25                            OIG-13-89
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   Appendix F
   Major Contributors to This Report
   Linda Howard, Director
   Andrew Smith, Audit Manager
   Christopher Byerly, Audit Lead
   Polin Cohanne, Senior Program Analyst
   Douglas Bozeman, Program Analyst
   Douglas Campbell, Program Analyst
   Shanelle Jones-Quintanilla, Program Analyst
   Kelly Herberger, Communications Analyst
   Katrina Bynes, Independent Referencer




www.oig.dhs.gov                              26                  OIG-13-89
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix G
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Under Secretary for Management
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Commissioner, U.S. Customs and Border Protection
   Commandant, U.S. Coast Guard
   USCG Audit Liaison
   Acting Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                             27                             OIG-13-89
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
